STATEMENT OF SERVICE
Case No. 19-333
Case Title:

Arlene’s Flowers, Inc., et al. v. State of Washington and Arlene’s
Flowers, Inc., et al. v. Ingersoll, et al.

Type of Document: Supplemental Brief of Respondents Ingersoll and Freed
Date documents were filed via the U.S. Supreme Court’s electronic filing system:
June 21, 2021
Date documents were emailed to the Court, opposing counsel, and each counsel of
record for parties to the case:
June 21, 2021
Date documents were sent via overnight FedEx to the Court, opposing counsel, and
each counsel of record for parties to the case:
June 21, 2021
Names, addresses, and email addresses of individuals served:
Kristen Kellie Waggoner
Alliance Defending Freedom
15100 N. 90th Street
Scottsdale, AZ 85260
kwaggoner@adflegal.org
Noah Guzzo Purcell
Office of the Attorney General
1125 Washington Street, SE
P.O. Box 40100
Olympia, WA 98504-0100
noahp@atg.wa.gov
Nicholas Jacob Bronni
Arkansas Attorney General’s Office
323 Center St., Suite 200
Little Rock, AR 72201
Nicholas.bronni@arkansasag.gov

Anthony Thomas Caso
Center for Constitutional Jurisprudence
One University Drive
Orange, CA 92866
caso@chapman.edu
Matthew James Clark
Foundation for Moral Law
1 Dexter Avenue
Montgomery, AL 36104
matt@morallaw.org
Frederick W. Claybrook, Jr.
Claybrook, LLC
700 Sixth St., NW, Ste. 430
Washington, DC 20001
rick@claybrooklaw.com
John Michael Connolly
Consovoy McCarthy PLLC
1600 Wilson Blvd
Suite 700
Arlington, VA 22209
mike@consovoymccarthy.com
Nathan W. Kellum
Center for Religious Expression
699 Oakleaf Office Lane
Suite 107
Memphis, TN 38117
nkellum@crelaw.org
John Guyton Knepper Jr.
Law Office of John G. Knepper, LLC
2122 Warren Avenue, Suite 310
Cheyenne, WY 82001
John@KnepperLLC.com
Ilya Shapiro
Cato Institute
1000 Massachusetts Ave., NW
Washington, DC 20001
ishapiro@cato.org

2

David H. Thompson
Cooper & Kirk, PLLC
1523 New Hampshire Avenue, N.W.
Washington, DC 20036
dthompson@cooperkirk.com
Randall L. Wenger
Independence Law Center
23 N. Front Street, First Floor
Harrisburg, PA 17101
rwenger@indlawcenter.org
s/Ria Tabacco Mar
Ria Tabacco Mar
American Civil Liberties Union Foundation
125 Broad Street
New York, NY 10004
(212) 549-2500
rmar@aclu.org
Counsel for Respondents
Robert Ingersoll and Curt Freed

3

